                                                             NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                                                            I
                                                                OFFICE OF INVESTIGATIONS

                                                      CLOSEOUT MEMORANDUM

11   Case Number: A03120077
                                                                                                 11             Page 1 of 1



                  In a review of conference/workshop awards, we identified an award1for the production of a
          manual2 for an NSF program3with unusual participant support charges. The awardee's4 proposal
          budget justification included travel expenses for the PI' and administration costs, including
          document preparation supplies, under the category of participant support. NSF awarded the total
          amount requested under the category of participant support.
11                The awardee institution supplied documentation to support the costs charged to the award
          showing approximately double the proposed costs for PI travel and administrative costs. When
          asked whether it had received program officer approval in writing to reallocate participant support
          for these non-participant support uses, the awardee responded that although it was confused by
          NSF's approval of the proposed budget, it assumed that NSF would permit the charges because they
          were in furtherance of the award. The awardee also claimed to have received approvals from NSF
          either verbally in conversations or implicitly by NSF's acceptance of trip reports.6
                  The program officer7verified that in making the award she understood that the PI'S travel
          support and administrative costs for the production of the manual would be drawn from participant
          support. She said she did not understand that these were direct costs that did not fall within the
          definition of participant support; it was common practice to award participant support costs to cover
          PI travel; and the extra costs for the PI and supplies were acceptable for the production of the
          manual. NSF appears satisfied with the PI'S product. However, a contract rather than a grant may
          have been a more appropriate instrument for obtaining such a product.
                  Because the funds appear to have been expended according to NSFysunderstanding, there are
          no further issues with regard to the awardee at this time.




               These reports were not in the award jacket. The program officer did produce them for us and will place copies in

         -ht


I'
 NSF OIG Form 2 (1 1/02)
